   November 18, 2003




Financial Management

Corps of Engineers Financial
Management System Accounting
Processes
(D-2004-023)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CEFMS                 Corps of Engineers Financial Management System
GLAC                  General Ledger Account
USACE                 U.S. Army Corps of Engineers
USSGL                 U.S. Government Standard General Ledger
         Office of the Inspector General of the Department of Defense
Report No. D-2004-023                                              November 18, 2003
  (Project No. D2003FI-0136)

             Corps of Engineers Financial Management System
                           Accounting Processes

                               Executive Summary

Who Should Read This Report and Why? This report should be read by DoD and
U.S. Army Corps of Engineers (USACE) civilians and uniformed officers responsible for
promoting proper financial management and preparing the USACE Civil Works financial
statements. The report identifies weaknesses within the Corps of Engineers Financial
Management System accounting processes, which led to the preparation of avoidable
journal voucher adjustments.

Background. The audit was performed in support of the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994. This report is a
result of work performed in support of the audit of the U.S. Army Corps of Engineers,
Civil Works, FY 2003 Financial Statements. The USACE Finance Center (Finance
Center) provides operational finance and accounting support for USACE worldwide.
The Finance Center is also responsible for performing research, analysis, development,
installation, and systems maintenance for the Corps of Engineers Financial Management
System (CEFMS). CEFMS fully integrates USACE business processes, supports the
management of all work and funds, and provides the financial information for the
USACE financial statements. CEFMS processes and summarizes accounting
transactions based on general ledger correlations. The Directorate for System
Development and Maintenance serves as a principal advisor to the Finance Center
Director for financial systems development and maintenance. The Federal Financial
Management Improvement Act states that an entity’s financial reporting systems must
substantially comply with Federal financial management systems requirements, Federal
accounting standards, and the U.S. Government Standard General Ledger (Standard
General Ledger) at the transaction level. To comply with the Standard General Ledger
requirements of the Federal Financial Management Improvement Act, Federal agencies
must capture the basic 4-digit Standard General Ledger account and its associated
attribute values.

Results. CEFMS did not process and summarize all accounting transactions in
accordance with the Standard General Ledger. USACE did not have a process in place to
ensure that the CEFMS general ledger correlations were promptly updated, or that
deficiencies were corrected. As a result, the Finance Center made $2.08 billion in
avoidable adjustments to the FY 2002 financial statements to correct accounting errors
because of general ledger correlation deficiencies. About $1.49 billion of these
adjustments were unsupported. The avoidable adjustments reduced the reliability of the
USACE financial statements and caused unnecessary work during the compilation of the
financial statements. USACE should expand their corrective action plan to include the
CEFMS accounting process and financial statement compilation deficiencies and prepare
problem reports to assign the proper “Federal” or “non-Federal” attribute for advances,
accounts payable, and expenses. (See the Finding section of the report for the detailed
recommendations.)

Management Comments and Audit Response. The Commander, U.S. Army Corps of
Engineers provided comments that were not fully responsive. We request that the
Commander, U.S. Army Corps of Engineers reconsider his position on the
recommendations and provide revised comments by January 16, 2004. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                     i

Background                                                            1

Objective                                                             3

Finding
     Implementation of the U.S. Government Standard General Ledger    4

Appendixes
     A. Scope and Methodology                                        11
         Prior Coverage                                              12
     B. Report Distribution                                          13

Management Comments
     U.S. Army Corps of Engineers                                    15
Background
    The audit was performed in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994. The
    Inspector General of the Department of Defense is required to audit the annual
    financial statements of the Department of Defense. This report is a result of work
    performed in support of the audit of the U.S. Army Corps of Engineers, Civil
    Works, FY 2003 Financial Statements.

    U.S. Army Corps of Engineers. The U.S. Army Corps of Engineers (USACE)
    provides engineering services to the Army and to the nation. These services
    include:

           •   planning, designing, building, and operating water resources and other
               civil works projects;

           •   designing and managing the construction of military facilities for the
               Army and Air Force; and

           •   providing design and construction management support for other
               Defense and Federal agencies.

    Headquarters USACE consists of an Executive Office and 17 Staff Principals that
    create policy and plan the future direction of all other Corps organizations. One
    of those organizations is the USACE Finance Center (Finance Center).

            USACE Finance Center. The Finance Center, located in
    Millington, Tennessee, provides operational finance and accounting support for
    USACE worldwide, which includes disbursing, accounting, and financial
    reporting for Civil Works and Military Programs appropriated funds as well as
    revolving and trust funds. The Finance Center is also responsible for performing
    research, analysis, development, installation, and systems maintenance for the
    Corps of Engineers Financial Management System (CEFMS). The Finance
    Center has four directorates.

            Directorate for Systems Development and Maintenance. The
    Directorate for System Development and Maintenance (the Directorate), one of
    the four directorates of the Finance Center but located in Huntsville, Alabama,
    serves as a principal advisor to the Finance Center Director for financial systems
    development and maintenance. The Directorate leads, directs, manages, and
    supervises the execution of the research, analysis, development, installation, and
    maintenance of standard USACE-wide automated financial management systems,
    including CEFMS.




                                         1
Federal Financial Management Improvement Act of 1996. The Federal
Financial Management Improvement Act states that an entity’s financial reporting
systems must substantially comply with Federal financial management systems
requirements, Federal accounting standards, and the U.S. Government Standard
General Ledger (USSGL) at the transaction level.

U.S. Government Standard General Ledger. The USSGL includes both
proprietary and budgetary general ledger accounts (GLACs), each identified by a
unique 4-digit number. Accountants use proprietary GLACs to record assets,
liabilities, equity, revenues, expenses, and miscellaneous gains and losses.
Budgetary GLACs contain the record of the receipt and use of budgetary
authority provided by the Congress. The U.S. Treasury Financial Management
Service (the Financial Management Service) defines the GLACs that make up the
USSGL in Treasury Financial Manual releases. Treasury Financial Manual
Release S2-02-02, August 7, 2002, listed the USSGL GLACs for FY 2002, and
Treasury Financial Manual Release S2-02-03, January 29, 2003, listed the
USSGL GLACs for FY 2003.

Federal agencies often need more detailed financial information than the 4-digit
USSGL account structure can provide. To accommodate this need, the Financial
Management Service defines several attributes that further refine the financial
information recorded in the GLACs. Each of the attributes may have two or more
values. When added to a basic 4-digit USSGL GLAC, the attribute values
provide the detail needed for agency reporting and, in effect, create new USSGL
GLACs. For example, the GLAC (2110) for Accounts Payable includes an
attribute, which indicates whether payment is due to another Federal agency
(“Federal”) or to some other creditor outside the Federal government (“non-
Federal”).

Federal agencies must capture this lower level of detail, the basic 4-digit USSGL
GLAC and its associated attribute values, to comply with the USSGL
requirements of the Federal Financial Management Improvement Act. Agencies
may add GLACs to their own chart of accounts by increasing the number of digits
necessary to accommodate agency-specific requirements. CEFMS uses 6-digit
GLACs with attributes. For example, the USSGL GLAC for Accounts Payable
is 2110, but CEFMS has 14 different GLACs (2110.10 through 2110.95) for
different types of Accounts Payable. However, GLACs added to agency-unique
charts of accounts must consolidate into the 4-digit USSGL accounts, plus any
related attributes.

Corps of Engineers Financial Management System. CEFMS fully integrates
USACE business processes, supports the management of all work and funds, and
provides the financial information for the USACE financial statements. One of
the functions of CEFMS is general ledger accounting. CEFMS processes and
summarizes accounting transactions based on general ledger correlations that are
stored in data manager tables. General ledger correlations are pro-forma
accounting entries that automatically debit and credit GLACs based on the nature
of the transaction being processed.




                                    2
    USACE Civil Works Financial Statements. The Finance Center uses financial
    information from CEFMS, modified by accounting adjustments, to prepare the
    USACE Civil Works financial statements. For FY 2002, USACE reported total
    assets of $43.2 billion, total liabilities of $2.4 billion, total budgetary resources of
    $11.9 billion, and net cost of operations of $3.7 billion for Civil Works. For the
    mid-year FY 2003 financial statements, USACE reported total assets of
    $46.7 billion, total liabilities of $2.4 billion, total budgetary resources of
    $10.6 billion, and net cost of operations of $1.9 billion.


Objective
    Our overall audit objective was to determine whether CEFMS processes and
    summarizes accounting transactions accurately and correctly. See Appendix A
    for a discussion of the scope and methodology.




                                           3
           Implementation of the U.S. Government
           Standard General Ledger
           The CEFMS did not process and summarize all accounting transactions in
           accordance with the USSGL. USACE did not have a process in place to
           ensure that the CEFMS general ledger correlations were promptly
           updated, or that deficiencies were corrected. As a result, the Finance
           Center had to make $2.08 billion in avoidable adjustments to the FY 2002
           financial statements to correct accounting errors because of general ledger
           correlation deficiencies. About $1.49 billion of the adjustments were
           unsupported. The avoidable adjustments reduced the reliability of the
           USACE Civil Works financial statements and caused unnecessary work
           during the compilation of the financial statements.


CEFMS Accounting Processes
    The CEFMS did not process all accounting transactions in accordance with the
    USSGL. CEFMS general ledger correlations did not record accounting data
    related to the following types of transactions in the correct GLACs.

    Classifying Federal and Non-Federal Transactions. CEFMS did not record all
    advances, expenses, and accounts payable correctly with the proper “Federal” or
    “non-Federal” attribute. Advances, expenses, and accounts payable resulting
    from activities with the public (non-Federal) were recorded as if they resulted
    from activities within the Federal Government (Federal). Other expenses and
    accounts payable resulting from Federal activities were recorded as if they
    resulted from non-Federal activities. CEFMS assigned the incorrect “Federal” or
    “non-Federal” attribute to these transactions.

    Accounting for Net Position. CEFMS general ledger correlations improperly
    posted amounts to Unexpended Appropriations (GLACs 3100-3109) and
    Expended Appropriations (GLAC 5700) for revolving funds, trust funds, and
    borrowing authority as though they were receiving appropriated funds. However,
    these fund accounts do not receive appropriated funds and do not have
    transactions that should affect these GLACs.

    Accounting for Budgetary Transactions. A series of CEFMS general ledger
    correlations affecting USACE revolving funds did not record amounts in
    budgetary GLACs properly. CEFMS did not correctly transfer resources among
    the proper budgetary GLACs.

    Accounting for Unexpended Appropriations. CEFMS did not record
    transactions affecting Unexpended Appropriations in the level of detail required
    by the USSGL. In July 2001, the Financial Management Service updated the
    USSGL chart of accounts, adding eight GLACs (3101 through 3107 and 3109) to
    provide additional detail for transactions involving Unexpended Appropriations
    (GLAC 3100). In September 2002, the Financial Management Service added
    another GLAC (3108) to this series. However, the Directorate did not implement


                                        4
    the additional GLACS until the third quarter of FY 2003. Until that time,
    CEFMS general ledger correlations still used GLAC 3100 as the only GLAC for
    Unexpended Appropriations and did not use the new GLACs (3101
    through 3109). The preparation of the Statement of Changes in Net Position
    requires the use of the new GLACs because they appear on separate lines in the
    statement. Because financial data had to be placed in the new GLACs to comply
    with DoD financial reporting requirements, the Finance Center had to manually
    compute the amount to be placed in each of the new GLACs. If the Directorate
    had implemented the changes required by the Financial Management Service in
    July 2001, the Finance Center could have avoided 15 adjustments for
    $500 million. The Finance Center did not support five of these avoidable
    adjustments for $70 million.


Updating General Ledger Correlations
    The USACE did not have a process in place to ensure that the Directorate updated
    general ledger correlations and corrected deficiencies promptly. Specifically,
    USACE personnel did not always prepare CEFMS problem reports. When
    problem reports were prepared, the Directorate could not correct general ledger
    correlations promptly. In addition, the general ledger deficiencies were not
    identified as an issue in the USACE corrective action plan.

    Problem Reports. USACE personnel did not always prepare CEFMS problem
    reports so the Directorate could make the needed corrections to the general ledger
    correlations. For example, the USACE did not prepare a problem report to
    properly classify certain non-Federal transactions as Federal transactions.
    Finance Center field activity personnel identified the need for system corrections
    through the CEFMS Problem Reporting System. Directorate personnel used
    problem reports to identify changes that they should make to CEFMS. The
    USACE should ensure that problem reports are prepared and submitted to the
    Directorate as soon as general ledger correlation deficiencies are identified.
    Correction Efforts. The Directorate was unable to make prompt corrections to
    CEFMS general ledger correlations. The Directorate was tasked with realigning
    its workload to give Chief Financial Officer-related system corrections the highest
    priority. Several corrections to general ledger correlations identified in the
    problem reports have been implemented, while other corrections were in process
    or awaiting action. However, additional work should be done to correct
    previously identified CEFMS deficiencies and achieve full USSGL
    implementation into the general ledger correlations. For example, Finance Center
    personnel first identified the problem with accounting for budgetary transactions
    in November 1999 (or more than 720 days prior to this audit), but Directorate
    personnel did not expect to begin the system changes necessary to correct the
    problem until FY 2004 at the earliest. Other problems have no estimated date for
    completion. See Table 1 for the age of problem reports.




                                         5
                           Table 1. Problem Report Aging
        Number of Days Since Number of Problem        Number of Affected
        Problem Report         Reports Prepared But   General Ledger
        Preparation1           Not Yet Completed      Correlations2

        91-180                                                 3                                      3
        181-360                                                5                                      7
        361-720                                                0                                      0
        more than 720                                          1                                     59
        1. Number of calendar days between the preparation date and June 20, 2003.
        2. Some correlations appear in multiple Problem Reports. The total number of correlations affected is 63.


    The USACE should increase the emphasis placed on keeping CEFMS compliant
    with the USSGL.

    Action Plan. The USACE had not identified deficiencies in CEFMS general
    ledger correlation or unsupported adjustments as subject areas requiring
    corrective actions tracked by management. In May 2003, the Commanding
    General, USACE tasked the USACE Financial Audit Committee with developing
    a FY 2003 audit corrective action plan. The USACE Financial Audit Committee
    established workgroups that issued corrective action plans that used an
    information paper approach to guide its components on correcting audit-related
    issues. Workgroups were required to prepare self-assessments for each subject
    area on a monthly basis and report to the USACE Financial Audit Committee by
    Major Subordinate Command. Local Internal Review offices were to validate
    corrective actions rated as complete. The USACE identified areas such as
    Construction-in-Progress, Buildings and Structures, Land, and CEFMS security
    issues as subject areas requiring corrective actions tracked by management.
    However, the corrective action plans did not address deficiencies in CEFMS
    general ledger correlations or the related financial statement compilation issue of
    unsupported adjustments.


Avoidable Adjustments
    FY 2002 Year-End Adjustments. During the compilation of the FY 2002 Civil
    Works Financial Statements, the Finance Center had to prepare 54 adjustments
    for $2.08 billion to correct accounting errors caused by deficiencies in the
    CEFMS general ledger correlations. However, 34 of the 54 adjustments for
    $1.49 billion were unsupported. See Table 2 for additional details.




                                                        6
       Table 2. FY 2002 Journal Vouchers Prepared to Correct Accounting
        Errors Due to Deficiencies in CEFMS General Ledger Correlations
                                (Dollars in Billions)
                                      Unsupported                  All
                                      Adjustments              Adjustments
              Category              Number   Amount         Number     Amount
    Classifying Federal and
    Non-Federal Transactions           23         $1.36        32           $1.50
    Accounting for
    Net Position                        3           .01         3              .01
    Accounting for
    Budgetary Transactions              3           .05         4              .07
    Accounting for
    Unexpended Appropriations           5           .07        15             .50
     Total                             34         $1.49        54           $2.08

    The unsupported adjustments did not meet the requirements of volume 6A of
    DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” or
    USACE internal policy. The Finance Center could not properly support the
    amounts presented in the 34 adjustments or provide the necessary audit trails.
    The unsupported avoidable adjustments reduced the reliability of the USACE
    Civil Works financial statements.

    FY 2003 Mid-Year Adjustments. Although we did not perform a full audit of
    FY 2003 mid-year adjustments, we found six avoidable adjustments, totaling
    $1.02 billion. The adjustments were made to correct accounting errors caused by
    deficiencies in CEFMS general ledger correlations during the compilation of the
    FY 2003 Mid-Year Civil Works Financial Statements. Four of the
    six adjustments were due to CEFMS recording non-Federal advances, expenses,
    and accounts payable as if they were due to business transacted within the Federal
    government. The other two adjustments were required because CEFMS general
    ledger correlations continued to improperly account for net position for revolving
    funds, trust funds, and borrowing authority. None of these adjustments met the
    support requirements of volume 6A of DoD Regulation 7000.14-R or USACE
    internal policy. Although noted during the preparation of the FY 2002 Civil
    Works Financial Statements, these deficiencies were not corrected in time to
    prevent avoidable adjustments to the FY 2003 Mid-Year Civil Works Financial
    Statements.


Conclusion
    Known deficiencies in the general ledger correlations result in CEFMS being
    noncompliant with the Federal Financial Management Improvement Act because
    Federal accounting standards were not being followed. The resulting avoidable
    adjustments caused unnecessary increases in the Finance Center workload that
    reduced the effectiveness of the financial statement compilation process and the


                                         7
    reliability of the financial statements. The accounting data submitted to the
    Defense Departmental Reporting System-Audited Financial Statements module
    for the USACE financial statements must comply with the USSGL. These two
    weaknesses will increase the risk of not achieving a favorable opinion on the
    USACE financial statements. Corrective action plans should include these system
    deficiencies and compilation-related weaknesses, and USACE management
    should track the implementation status of the necessary corrective actions.
    Because the Office of Management and Budget has greatly reduced the time
    available to complete financial statement preparation, any avoidable work
    unnecessarily increases the risk of error. If the Directorate had kept the CEFMS
    general ledger correlations current, the Finance Center would have avoided the
    54 adjustments at FY 2002 year-end.


Management Comments on the Finding and Audit Response
    Management Comments on Classifying Non-Federal Transactions. USACE
    stated that the CEFMS general ledger correlations determine the correct non-
    Federal/Federal GLAC to update based on a debtor classification code. If the
    debtor classification code is correct, then the general ledger updates will be
    correct. USACE stated that if an “incorrect” GLAC update occurred, it was
    caused by an incorrect debtor classification code assigned to an entity. USACE
    also stated that general ledger updates made to record the execution of non-
    Federal advances consistently update the correct GLACs based on the applicable
    debtor classification code. USACE stated that no corrective action could be taken
    because they had not been provided a specific example of an incorrect general
    ledger update of this nature.

    Audit Response. The documentation shows that many of the adjustments were
    caused by CEFMS. For example, 18 adjustments for $291.9 million were
    employee benefit contribution expenses reclassified from expenses with the
    public to expenses within the Federal Government for FY 2002. The justification
    on the journal vouchers specifically stated that the adjustments were necessary
    because CEFMS was unable to account for these transactions properly. We agree
    with USACE suspicions that an incorrect debtor classification code may have
    caused an adjustment to be made because of a CEFMS accounting error. For
    example, an unsupported adjustment for $1 billion was made to reclassify
    FY 2002 Federal expenses to non-Federal expenses. However, debtor
    classification codes are contained in data manager tables embedded in CEFMS
    and affect how transactions are processed. USACE needs to correct these
    deficiencies.

    We disagree with the USACE statement that no specific example of an incorrect
    general ledger process had been provided. We discussed FY 2002 journal
    vouchers that we had identified as CEFMS processing deficiencies with Finance
    Center personnel in August 2003. Finance Center personnel confirmed our
    findings. We provided the Finance Center a listing of the journal voucher
    adjustments on October 9, 2003. This listing identified the journal voucher
    adjustments that reclassified advances, accounts payable, and expenses.



                                        8
    Management Comments on Accounting for Budgetary Transactions.
    USACE acknowledged that a problem report had been filed for some time and
    stated that USACE had attempted to obtain the identification of the proper
    GLACs to correctly record the transfer of revolving fund resources. However,
    USACE had not yet been provided any information, which would enable it to
    determine the general ledger correlation changes needed. Once the information is
    provided, USACE will be able to evaluate the extent of the system changes
    required and provide an estimated completion date.

    Audit Response. Waiting until one problem report provides an example will not
    fix the CEFMS deficiency and move the USACE, Civil Works, financial
    statements closer to a clean audit opinion. The Finance Center was able to
    identify the problem in order to make a proper and supported adjustment to the
    financial statement data, see Table 2. In June 2003, Finance Center System
    Development and Maintenance Directorate personnel stated that accounting for
    budgetary transactions in the revolving fund would require a significant level of
    resources to correct the entire series of revolving fund transactions.


Recommendations, Management Comments, and Audit
  Response
    Deleted and Renumbered Recommendations. We deleted draft report
    Recommendation 1, based on an agreement with USACE personnel. We have
    renumbered Recommendations 2. and 3. as final report Recommendations 1.
    and 2., respectively.

    1. We recommend that the Commander, U.S. Army Corps of Engineers
    prepare problem reports to correct the Corps of Engineers Financial
    Management System to assign the proper “Federal” or “non-Federal”
    attribute for advances, expenses, and accounts payable.

    Management Comments. USACE partially concurred and stated that guidance
    will be issued to the field emphasizing the need to properly code the debtor class
    of vendors. The target date for the Director of the Finance Center to issue this
    guidance is April 30, 2004.

    Audit Response. The USACE comments were not responsive. The FY 2002
    journal vouchers discussed in “Management Comments on the Finding and Audit
    Response” to reclassify expenses showed that the adjustments were necessary
    because CEFMS was unable to account for the transactions properly as Federal or
    non-Federal. USACE needs to prepare a problem report and take action to correct
    this deficiency. We request that the Commander reconsider his position and
    provide comments by January 16, 2004.




                                         9
2. We recommend that the Commander, U.S. Army Corps of Engineers
address the Corps of Engineers Financial Management System general
ledger correlation deficiencies and the need to support accounting
adjustments in the U.S. Army Corps of Engineers corrective action plan.
Specifically:

      a. Issue an information paper that addresses corrective actions in
accordance with:

            (1) the Corps of Engineers Financial Management System
Problem Reporting System for the Corps of Engineers Financial
Management System accounting process deficiencies and

              (2) the DoD Financial Management Regulation requirements
regarding the preparation of journal voucher adjustments.

Management Comments. USACE concurred and stated that the Director,
U.S. Army Corps of Engineers Finance Center will review current operating
policy and issue updated guidance by June 30, 2004.

Audit Response. The USACE comments were not responsive. The proposed
policy does not constitute acknowledgement of financial statement compilation-
related weaknesses and system deficiencies. It will not provide USACE a
mechanism to ensure that needed corrective actions are completed in a timely
manner and measure progress. The USACE Corrective Action Plan outlines
numerous processes whereby corrective actions are needed to correct previous
auditor-identified process deficiencies. Corrective actions are outlined on
separate information papers; however, there is no information paper on
compilation weaknesses and system deficiencies. The compilation weaknesses
and system deficiencies are a major impairment to an unqualified opinion on the
USACE, Civil Works, financial statements. We request that the Commander
reconsider his position and provide comments by January 16, 2004.

      b. Track the status of corrective actions on a monthly basis through
previously established monitoring procedures.

Management Comments. USACE concurred and stated that the Director,
U.S. Army Corps of Engineers Finance Center will initiate this action in
January 2004.

Audit Response. The USACE comments were partially responsive. USACE did
not provide an explanation of how the status of corrective actions will be tracked
and monitored. The USACE comments to Recommendation 2.a. did not state that
compilation weaknesses and system deficiencies would be part of the Corrective
Action Plan. The Corrective Action Plan provides a mechanism for monitoring
corrective actions. We request that the Commander provide additional comments
on how the status of corrective actions will be tracked and monitored by
January 16, 2004.




                                    10
Appendix A. Scope and Methodology
   We reviewed the CEFMS processes for accounting and summarizing
   transactions. Specifically, we reviewed the general ledger correlations within
   CEFMS, as they affected financial reporting for the USACE mid-year FY 2003
   financial statements. We examined whether the CEFMS general ledger
   correlations were presented in accordance with Federal accounting standards and
   properly implemented changes to the USSGL chart of accounts. Our review
   included the USACE process to updated general ledger correlations and
   preparation of CEFMS problem reports. In addition, we reviewed the USACE
   corrective action plan to determine if financial statement compilation issues were
   addressed.

   We also examined accounting adjustments made to the FY 2002 and the mid-year
   FY 2003 USACE, Civil Works, financial data to determine what caused the
   adjustments. The accounting adjustments consisted of journal voucher and
   supporting documentation prepared by the Finance Center. We reviewed
   241 journal voucher adjustments for FY 2002, totaling $13.3 billion, and
   43 journal vouchers for mid-year FY 2003, totaling $10.8 billion. The
   adjustments made in FY 2003 constituted about 95 percent of the value for all
   journal voucher adjustments prepared. The journal voucher adjustments reviewed
   were recorded in the Defense Departmental Reporting System-Audit Financial
   Statements module.

   We performed this audit from May 2003 through September 2003 in accordance
   with generally accepted government auditing standards.

   We did not review the management control program during the audit. The
   management control program was reviewed as part of the audit work for Project
   No. D2003FI-0065, “Compilation of the U.S. Army Corps of Engineers, Civil
   Works, FY 2003 Financial Statements.” We did not review adjustments made to
   USACE FY 2002 and mid-year FY 2003 financial data other than those entered
   into the Defense Departmental Reporting System-Audited Financial Statements
   module.
   Use of Computer-Processed Data. We examined the general ledger
   correlations contained in CEFMS. General ledger correlations are pro-forma
   accounting entries that automatically debit and credit GLACs based on the nature
   of the transaction processed. General ledger correlations are not computer-
   processed data. We compared the CEFMS general ledger correlations to the
   USSGL, and the deficiencies are discussed in the finding. We did not use
   computer-processed financial data to perform the review of journal vouchers.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the Defense Financial Management high-risk area.




                                       11
Prior Coverage
       No audit reports have been issued by the General Accounting Office or the
       Inspector General of the Department of Defense in the past 5 years addressing
       general ledger correlations or USSGL compliance. The U.S. Army Audit Agency
       has issued one report in the past 5 years addressing general ledger correlations or
       USSGL compliance.

Army
       U.S. Army Audit Agency Report No. AA 99-18, “Corps of Engineers Financial
       Management System,” November 6, 1998.




                                           12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
U.S. Army Corps of Engineers Comments




                     15
16
     Final Report
      Reference




     Deleted




     Renumbered
     as
     Recommen-
     dation 1.

     Renumbered
     as
     Recommen-
     dation 2.




17
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense, prepared this
report. Personnel of the Office of the Inspector General of the Department of
Defense who contributed to the report are listed below.

Paul J. Granetto
Marvin L. Peek
Jack L. Armstrong
Paul C. Wenzel
Kathleen A. Furey
Emily G. Richards
Christine P. Winston
Craig W. Zimmerman
